                                                                Issue Date
                                                                         April 9, 2012
                                                                 
                                                                Audit Report Number
                                                                             2012-KC-1004




TO:        Frances M. Cleary, Director, Kansas City Office of Public Housing, 7APH


FROM:      Ronald Hosking, Regional Inspector General for Audit, 7AGA

SUBJECT: The Manhattan, KS, Housing Authority Improperly Executed a Contract Change
           Order and Did Not Accurately Report on Its Recovery Act Funds


                                   HIGHLIGHTS

 What We Audited and Why

             We reviewed the Manhattan, KS, Public Housing Authority. We selected the
             Authority for review because it received funding under the American Recovery
             and Reinvestment Act of 2009. Our audit objectives were to determine whether
             the Authority executed a contract change order in compliance with U.S.
             Department of Housing and Urban Development (HUD) procurement regulations
             and the Authority’s procurement policy and accurately and completely reported
             Recovery Act grant information in FederalReporting.gov.

 What We Found


             The Authority improperly executed a contract change order. In addition, it did
             not accurately or completely report Recovery Act grant information in
             FederalReporting.gov.
What We Recommend


           We recommend that the Director of HUD’s Kansas City Office of Public Housing
           work with the Authority to develop and implement written policies and procedures
           for executing a contract change order. We also recommend that the Director work
           with the Authority to support the $10,349 in contractor and subcontractor fees. For
           any portion of the fees that is not supported, HUD should reduce future annual
           capital funds. Lastly, we recommend that the Director work with the Authority to
           update its Recovery Act Web site as appropriate to reflect the correct program
           information.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response
           We provided the draft report to the Authority on March 26, 2012 and requested a
           response by April 9, 2012. The Authority provided written comments on March
           30, 2012. The Authority agreed with our findings and recommendations.

           The complete text of the auditee’s response can be found in appendix B of this
           report.




                                             2
                           TABLE OF CONTENTS

Background and Objectives                                                         4

Results of Audit
      Finding 1: The Authority Improperly Executed a Contract Change Order        5
      Finding 2: The Authority Did Not Accurately or Completely Report Recovery   8
      Act Grant Information in FederalReporting.gov

Scope and Methodology                                                             10

Internal Controls                                                                 11

Appendixes
   A. Schedule of Questioned Costs                                                13
   B. Auditee Comments                                                            14




                                           3
                      BACKGROUND AND OBJECTIVES

The City of Manhattan, KS, created the Manhattan Housing Authority in November 1969. The
Authority’s mission is to assist income-qualified persons with decent, safe, and affordable
housing in an efficient, ethical, and professional manner. A seven-member board of
commissioners governs the Authority, and an executive director manages its daily operations.
The members of the board are appointed by the mayor and city commission of Manhattan. The
Authority’s central office is located at 300 North 5th Street, Manhattan, KS.

On February 17, 2009, President Obama signed the American Recovery and Reinvestment Act
of 2009. This legislation included a $4 billion appropriation of capital funds to carry out capital
and management activities for public housing agencies as authorized under Section 9 of the
United States Housing Act of 1937. The Recovery Act requires that $3 billion of these funds be
distributed as formula grants and the remaining $1 billion be distributed through a competitive
grant process. On March 18, 2009, the U.S. Department of Housing and Urban Development
(HUD) awarded the Authority a $468,163 Recovery Act formula grant.

The Recovery Act imposed reporting requirements and stringent obligation and expenditure
requirements for grant recipients beyond those applicable to ongoing Public Housing Capital
Fund program grants. For example, the Authority was required to obligate 100 percent of its
Recovery Act formula grant funds by March 18, 2010, and expend 100 percent of these funds by
March 18, 2012. As of December 31, 2010, the Authority had obligated and expended all of its
Recovery Act grant funds. Transparency and accountability are critical priorities in the funding
and implementation of the Recovery Act.

Our audit objectives were to determine whether the Authority executed a contract change order
in compliance with HUD procurement regulations and the Authority’s procurement policy and
accurately and completely reported Recovery Act grant information in FederalReporting.gov.




                                                 4
                                RESULTS OF AUDIT

Finding 1: The Authority Improperly Executed a Contract Change
Order
The Authority improperly executed a contract change order. This condition occurred because the
Authority did not have written policies and procedures for executing a contract change order. As
a result, HUD lacked assurance that the Authority received the best value for more than $53,000
spent on the change order.



 Improperly Executed a
 Contract Change Order

              The Authority executed a contract change order outside the scope of the original
              contract without requiring contractors to provide the required cost breakdown of the
              proposals or completing the independent cost estimate before reviewing proposals.

              The Authority executed a contract change order that was outside the scope of the
              original contract. It originally entered into a contract to replace 47 heating,
              ventilation, and air conditioning (HVAC) and hot water heater units in March of
              2010. The change order was executed to wrap existing duct work with insulation to
              eliminate condensation damage to the ceiling and light fixtures. The original
              contract required only the new HVAC units to be attached to the existing duct work
              and did not require replacement or improvement of duct work.

              HUD Handbook 2210.18, paragraph 1.2(B)(4), states that modifications that change
              the scope of work beyond the original contract must be justified as noncompetitive
              or procured competitively. The Authority did not justify the change order services
              as noncompetitive or procure the services competitively.

              The Authority did not require contractors to provide the required cost breakdown of
              the proposals submitted for the change order services. HUD Handbook 2210.18,
              paragraph 1.2(B)(4), states that the Authority must request a cost breakdown of the
              proposed cost. Further, form HUD-5370 states that contractors must break down
              proposals into direct costs, indirect costs, and profit.

              The Authority could not support the more than $10,000 in contractor and
              subcontractor fees charged for administering the change order services. Form HUD-
              5370 states that contractors are prohibited from receiving profit on the profit
              received by subcontractors. The primary service provider submitted a proposal of
              $42,490 to the subcontractor. The subcontractor then increased the proposal by
              $5,546 for overhead and submitted it to the general contractor. The general



                                                5
           contractor increased the proposal by $4,803 before submitting the final proposal to
           the Authority.

           The Authority reviewed the contractor and subcontractor proposals and supplied
           them to the engineer before the engineer completed the required independent cost
           estimate. Regulations at 24 CFR (Code of Federal Regulations) 85.36(f)(1) state
           that at a starting point, grantees must make independent cost estimates before
           receiving bids or proposals. The general contractor of the original contract
           submitted a bid for the change order to the Authority on March 10, 2010, in the
           amount of $53,220. On March 12, 2010, the Authority’s engineer sent an email to
           the Authority indicating that he had reviewed the bid proposal and estimated the
           work cost to be between $47,000 and $70,500. The Authority used the engineer’s
           estimate as the independent cost estimate for the change order.

The Authority Lacked Written
Policies and Procedures

           The Authority did not have written policies and procedures for executing a contract
           change order. It adopted a sample HUD procurement policy and did not expand the
           policy to incorporate the requirements for executing change orders included in HUD
           Handbook 7460.8, REV-2, section 11.4, and HUD Handbook 2210.18, section 1.2.

HUD Lacked Assurance That
The Authority Received the
Best Value

           As a result of the conditions described above, HUD lacked assurance that the
           Authority received the best value for more than $53,000 spent on a contract
           change order. The contractor that provided the change order services was a sole
           source provider in the Authority’s location. The Authority might have avoided
           more than $10,000 in contractor and subcontractor fees had it properly procured
           the duct wrap insulation instead of improperly executing a contract change order.

Recommendations



           We recommend that the Director of HUD’s Kansas City Office of Public Housing
           work with the Authority to

           1A. Develop and implement written policies and procedures for executing a contract
               change order.




                                             6
1B. Support the $10,349 in contractor and subcontractor fees. For any portion of
    the fees that is not supported, HUD should reduce future annual capital funds.




                                 7
Finding 2: The Authority Did Not Accurately or Completely Report
Recovery Act Grant Information in FederalReporting.gov
The Authority did not accurately or completely report Recovery Act grant information in
FederalReporting.gov. This condition occurred because Authority staff did not receive adequate
training. As a result, the public did not have access to accurate and complete grant information.



 The Authority Did Not
 Accurately or Completely
 Report Required Information

               The Authority generally obligated and expended Recovery Act grant funds in
               accordance with Recovery Act requirements, but it did not accurately or
               completely report its Recovery Act grant information in FederalReporting.gov.
               According to the Recovery Act requirements (2 CFR Part 176) and Office of
               Management and Budget (OMB) guidance, Recovery Act grant recipients are
               required to report the following information in FederalReporitng.gov:

                     Amount of the Recovery Act grant award,
                     Project information for use of the grant funds,
                     Number of jobs created or retained with the Recovery Act grant,
                     Funds invoiced,
                     Funds received,
                     Expenditure amounts,
                     Listing of vendors receiving Recovery Act funds, and
                     Vendor transactions.

               The Authority did not accurately or completely report the vendors that received
               payments greater than $25,000 in FederalReporting.gov. The OMB memorandum
               M-09-21, section 2.3, requires Recovery Act grant recipients to report additional
               data elements for vendors who received payments greater than $25,000. The
               Authority had seven instances of individual payments greater than $25,000 made
               to four vendors during the second and third quarters of 2010. The Authority did
               not report any of the required vendor information for the vendors that received
               payments greater than $25,000.

               Also, the Authority did not accurately or completely report in
               FederalReporting.gov the number of jobs created or retained using Recovery Act
               grant funds for the first three quarters of 2010. The following chart shows the
               difference between the number of jobs reported by the Authority and the number
               that should have been reported.




                                                8
                                                      Jobs created or     Actual jobs
                                                   retained reported in created or Reporting
             Quarter    Start date    End date    FederalReporting.gov retained difference
                    1    1/1/2010     3/31/2010                         0          0.4 (0.40)
                    2    4/1/2010     6/30/2010                      7.31          8.7 (1.39)
                    3    7/1/2010     9/30/2010                       7.5         0.25   7.25
                    4   10/1/2010    12/31/2010                         0            0      0
           ( ) represents jobs underreported.

The Authority Did Not Receive
Adequate Training

           The Authority’s staff did not receive adequate training. According to the assistant
           executive director, Authority staff responsible for entering the data into
           FederalReporting.gov did not receive training.

The Public Did Not Have
Access to Accurate Grant
Information

           As a result of the conditions described above, the public did not have access to
           accurate and complete grant information.

Recommendations



           Since the Authority had completed its Recovery Act reporting requirements, we did
           not provide recommendations related to the cause of this finding. However, we
           recommend that the Director, Office of Public Housing, work with the Authority to

           2A. Update its Recovery Act Web site as appropriate to reflect the correct program
               information.




                                                  9
                         SCOPE AND METHODOLOGY

Our review generally covered the period January 2009 through September 2010. We conducted
our fieldwork from November 2011 through January 2012 at the property located at 300 North 5th
Street, Manhattan, KS.

To accomplish our objectives, we

          Interviewed the Authority’s staff and its contractors, subcontractors, and architects.
          Interviewed HUD’s Office of Public and Indian Housing staff in Kansas City, KS.
          Obtained a review of architects’ drawings and scope of work by a HUD Office of
           Inspector General (OIG) appraiser.
          Reviewed the Authority’s Recovery Act procurement policies, procurement and
           contracting files, and financial records.
          Reviewed Federal regulations, the Recovery Act, and HUD requirements.

We reviewed 100 percent of the Authority’s Recovery Act grant obligations and expenditures.
The entire grant was obligated with five contracts, a contract change order, and advertising costs.
As of September 2010, the Authority had expended the entire Recovery Act grant.

We did not rely on computer-processed data or select samples for our audit purposes. We traced
or verified information from HUD’s Line of Credit Control System and data that the Authority
self-reported in FederalReporting.gov to supporting documentation to support our audit
conclusions.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                                10
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objectives:

                     Controls over the obligation of Recovery Act funds.
                     Controls over the procurement and use of Recovery Act funds.
                     Controls over the reporting of Recovery Act grant information in
                      FederalReporting.gov.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies


               Based on our review, we believe that the following items are significant deficiencies:

                     The Authority lacked written policies and procedures for executing
                      contract change orders (finding 1).



                                                 11
   The Authority did not provide training to staff responsible for entering data
    into FederalReporting.gov (finding 2).




                              12
                                   APPENDIXES

Appendix A

                  SCHEDULE OF QUESTIONED COSTS

 Recommendation                                            Unsupported 1/
     number

      1B.                                                     $10,349



1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             13
Appendix B

                         AUDITEE COMMENTS




                             March 30, 2012
                  Response to OIG Report on ARRA Funds

      FINDING NO. 1
      The Authority executed a contract change order outside the scope of the
      original contract without requiring contractors to provide the required
      cost breakdown of the proposals or completing the independent cost
      estimate before reviewing proposals.

      RESPONSE TO FINDING NO. 1
      The Manhattan Housing Authority regrets the error, and agrees that
      revisions should be made to the existing Procurement Policy that will
      provide additional procedural information for procuring and executing
      contract change orders. It should be noted that at the time the ARRA
      Capital Funds were awarded, MHA was designated Financial Troubled;
      therefore, in accordance with federal regulations, all procurement and
      contract documents required review and approval by the HUD Field
      Office. The Change Order was reviewed and approved by the HUD Field
      Office prior to its execution, therefore does not agree that $10,349 should
      be withheld from future Capital Fund Program funding. MHA will work
      with the HUD Field Office to resolve the matter.

      FINDING NO. 2
      The Authority did not accurately or completely report the vendors that
      received payments greater than $25,000 in FederalReporting.gov. Also,
      the Authority did not accurately or completely report in
      FederalReporting.gov the number of jobs created or retained using
      Recovery Act grant funds for the first three quarters of 2010.

      RESPONSE TO FINDING NO. 2
      The Manhattan Housing Authority (MHA) regrets the error. Due to vague
      guidance that was subject to interpretation, the information was
      incorrectly reported with no intention of untruthfulness. MHA will work
      with the HUD Field Office to update data in FederalReporting.gov to
      reflect accurate data.




                                         14
